39rtffeh jiiafos Caitrf of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted January 29, 2021
Decided February 3, 2021
Before
DAVID F. HAMILTON, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
No. 20-3302
WALLACE HAMMERLE,
Petitioner-Appellantj
v.
DYLON RADTKE,
Respondent-Appellee.

Appeal from the United States District
Court for the Eastern District of Wisconsin.
No. 2:19-cv-01773-WED
William E. Duffin,
Magistrate Judge.
ORDER

Wallace Hammerle has filed a notice of appeal from the denial of his petition
under 28 U.S.C. § 2254. We construe this filing as an application for a certificate of
appealability. After reviewing the final order of the district court and the record on
appeaVwefirtd. no substantial-showing of the denial of a constitutional right ------See 28 U.S.C.§ 2253(c)(2).
Accordingly, Hammerle's request for a certificate of appealability is DENIED.

Appendix A.

r '

■

United States District Court
Eastern District of Wisconsin
JUDGMENT in a civil action
WALLACE .HAMMERLE,
Petitioner,
v.

Case No. 19CV-1773
dylon radtke,

Respondent.

awn

llits
IT IS FURTHER ORDERED
IT IS FURTHER ORDERED

petitioner's certificate of appealability is DENIED.
*is case is DISMISSED.

Date: October 21,2020.
,??.^C°l|et|i'aerk of Court
EASTERN DISTRICT OF WISCONSIN
(By) Deputy Clerk, S/Maiy Murawski
Approved flus21*day of October, 2020

mtw :«*!!

JtllSii

sifir

.mmns.
mmmmm
nmmt
>.* *

Case 2:19-cv-01773-wed

Filed 10/21/20 Page 1 of 1

Document 16
Appendix B.

V4
1 2004
COURT OF APPEALS
DECISION
DATED AND FILED
March 4,2004
Cornelia G. Clark
Clerk of Court of Appeals

Appeal No.

NOTICE
This opinion is subject to further editing. If
published, the official version will appear in
the bound volume of the Official Reports.
A party may file with the Supreme Court a
petition to review an adverse decision by the
Court of Appeals. See WlS. STAT. § 808.10
and RULE 809.62.

Cir. Ct No. 0ICF000144

03-0594-CR

STATE OF WISCONSIN

IN COURT OF APPEALS
DISTRICT IV

State of Wisconsin,
Plaintiff-Respondent,

v.
Wallace J. Hammerle,
Defendant-Appellant.

APPEAL from a judgment and an order of the circuit court for
Wood County: EDWARD F. ZAPPEN, Judge. Affirmed.
Before Dykman, Lundsten and Higginbotham, JJ.
11

PER CURIAM. Wallace Hammerle appeals from a judgment

convicting him of first-degree reckless homicide, and from an order denying him
postconviction relief. He raises several issues concerning the proceedings. We
reject his arguments and affirm.

Appendix C.

No. 03-0594-CR

' 12

Hammerle’s eight-week-old daughter, Devon Kuehl, died of a

fractured skull. Based on the information provided by the child’s mother, Dawn
Kuehl, and an informant named Edwin Estep, the State charged Hammerle with
first-degree reckless homicide. At trial, Dawn testified that the morning after a
night when she and Hammerle engaged in heavy drinking, Devon and Hammerle
were in a room together, and Devon was crying.

The crying then abruptly

stopped. The child was dead within several hours. Dawn admitted that she
initially provided a completely different version of the events leading to Devon’s
death, one that completely omitted Hammerle’s involvement.

However, she

explained that she did so to protect him because he was wanted by the police as a
probation absconder, but decided to tell the truth after she learned that Devon died
a violent death.

13

The State’s other principal witness was Estep, who met Hammerle in

prison several months after Devon’s death. (Hammerle was imprisoned after his
arrest and probation revocation). According to Estep, Hammerle described in
detail how he beat Devon to death.
14

Estep had at least thirteen criminal convictions on his record. The

State disclosed eight, the number of his Wisconsin convictions, but did not inform
defense counsel of five Illinois convictions.

When asked at trial about his

convictions, Estep admitted to an unspecified number of bad check and retail theft
convictions.

He also testified that he had absconded from parole to avoid

testifying against Hammerle, because of threats to his imprisoned brother from
other inmates.

15

In his defense, Hammerle testified that Devon’s injuries occurred

when Dawn accidentally banged Devon’s head against a doorway. His mother

2

No. 03-0594-CR

testified that he told her the same story on the day of Devon’s death. He also
emphasized the inconsistencies in Dawn’s statements about the death, and testified
that he never discussed the matter with Estep.
^[6

After Hammerle’s conviction he sought postconviction relief based

on newly discovered evidence. The trial court denied relief, resulting in this
appeal.

The issues are:

(1) whether the evidence was sufficient, to convict

Hammerle; (2) whether the trial court erroneously limited defense counsel’s
closing argument; (3) whether the prosecutor violated Hammerle’s constitutional
rights by failing to disclose exculpatory evidence; (4) whether newly discovered
evidence mandates a new trial; and (5) whether the trial court demonstrated a bias
toward Hammerle.

17

We conclude the jury heard sufficient evidence to convict

Hammerle. We address this issue first, even though Hammerle contends that
errors occurred during the evidentiary portion of the proceeding. In considering
the sufficiency of the evidence, this court must consider all of the evidence
submitted, including erroneously admitted evidence. See Lockhart v. Nelson, 488
U.S. 33, 40-42 (1988). Dawn identified Hammerle as the only person present
when Devon suffered the fatal blow or blows to her head.

Estep provided

testimony about Hammerle’s detailed admission of guilt. There were reasons to
doubt the testimony of either or both of these witnesses. However, the jury clearly
chose to believe their version of the fatal events, rather than Hammerle’s. That
was its prerogative. See Whitaker v. State, 83 Wis. 2d 368, 377, 265 N.W.2d 575
(1978). Having chosen to believe the State’s witnesses, the jury could reasonably
find guilt beyond a reasonable doubt from their testimony. On appeal, we reverse
a conviction for insufficient evidence only if that evidence “viewed most
favorably to the State and the conviction, is so insufficient in probative value and
3

No. 03-0594-CR

force that it can be said as a matter of law that no trier of fact, acting reasonably,
could have found guilt beyond a reasonable doubt.” State v. Poellinger, 153
Wis. 2d 493, 501,451.N-W.2d 752 (1990). We cannot say that here.

18

Hammerle waived his argument that the trial court improperly

limited his counsel’s closing statement,

The trial court allowed Hammerle’s

mother to testify that Hammerle gave a consistent, exculpatory version of events
shortly after they occurred, to rebut an implication that he recently fabricated his
defense. See WIS. STAT. § 908.01(4). However, the trial court instructed counsel
that he could not argue that what Hammerle said to his mother proved that what he
said occurred. Counsel did not object to this limitation on his use of the evidence,
and instead agreed that the statement was offered to prove its making rather than
the truth of the matter asserted. Consequently, the argument is waived on appeal.
See State v. Nielsen, 2001 WI App 192, 111, 247 Wis. 2d 466, 634 N.W.2d 325.
In any event, Hammerle suffered no prejudice from the court’s limitation. There
was no limiting instruction. The jury heard the testimony and, as the trial court
observed, was able to draw whatever inference it chose.
1J9

Hammerle has not shown that the prosecutor suppressed exculpatory

evidence. A defendant is constitutionally entitled to material exculpatory evidence
from the prosecutor. Brady v. Maryland, 373 U.S. 83, 86 (1963). In this case, the
undisclosed exculpatory information was Estep’s five Illinois convictions.
However, the court found that the State was never aware of those convictions,
despite a diligent, good faith investigation. Hammerle does not challenge that
ruling, and that resolves the issue. He concedes in his brief that the duty to
disclose only extends to information that the State actually possesses or controls.

4

No. 03-0594-CR

Kio

Hammerle has not satisfied the newly discovered evidence test. His

new evidence consisted of: (1) testimony from Estep’s brother denying that other
inmates had threatened him over Estep’s testimony against Hammerle, and (2) the
full extent of Estep’s criminal history. His burden required a showing that this
evidence would make a different result on retrial reasonably probable. State v.
McCallum, 208 Wis. 2d 463, 473, 561 N.W.2d 707 (1997). The trial court’s
determination on that question is discretionary. State v. Eckert, 203 Wis. 2d 497,
516, 553 N.W.2d 539 (Ct. App. 1996). Here, Estep’s motive for absconding, and
his willingness or unwillingness to testify against Hammerle, were peripheral
•i -'

issues. Estep had no apparent motive to lie. The trial court reasonably concluded
that an attempt to impeach Estep on these matters would not measurably affect the
outcome of a retrial. Additionally, the same is true of the evidence of Estep’s five
Illinois convictions.

It is only speculation that the difference between eight

convictions and thirteen convictions would change a jury’s credibility
determination. In any event, the jury never learned that Estep had even eight
convictions. He admitted to an unspecified number.
fll

Hammerle’s claim of the judge’s bias is unsupported by the record.

Hammerle had a constitutional right to an impartial judge. State v. Hollingsworth,
160 Wis. 2d 883, 893, 467 N.W.2d 555 (Ct. App. 1991). The judge violates that
right by actually treating the defendant unfairly.

Id. at 894.

Merely the

appearance of partiality, or of circumstances allowing speculation as to
impartiality, is not sufficient. Id. In this case, Hammerle points to an instance
where the judge allegedly signaled the prosecutor to object to a question. The
judge admitted an observable reaction to the question, which he considered plainly
objectionable, but adamantly denied signaling the prosecutor, This court has no
basis to review the trial court’s description of its subjective state of mind.

5

No. 03-0S94-CR

f 12

Additionally, Hammerle points to other comments the judge made

concerning the weakness of Hammerle’s case and the performance of his attorney.
Even if these comments about the case suggested bias, which is a conclusion we
do not share, the judge made them outside the jury’s presence. They did not
amount to, nor indicate, unfair treatment in fact.
113

Finally, Hammerle complains that the judge referred to his decision

to impose the maximum sentence as “a no brainer.” The judge made the comment
after sentencing, and we construe it as a comment on the numerous very
aggravating factors present in this case, and not as an indication of prejudgment or
other bias.
By the Court.—Judgment and order affirmed.
This opinion will not be published.
809.23(l)(b)5.

6

See Wis. Stat. Rule

Office of the Clerk

J§>uprEme (Erruri nf pfftsnmgsm
110 East Main Street, Suite 215
P.O. BOX1688
Madison, WI 53701-1688

0*
” %

Telephone (608) 266-1880
Facsimile (608) 267-0640
Web Site: www.wicourts.gov

August 2,2004
To:
Hon. Edward F. Zappen
Wood County Circuit Court
P.O. Box 8095
Wisconsin Rapids, WI 54494

Marguerite M. Moeller
Assistant Attorney General
P.O. Box 7857
Madison, WI 53707-7857

Cindy Joosten
Wood County Clerk of Courts
P.O. Box 8095
Wisconsin Rapids, WI 54494

Todd P. Wolf
Wood County District Attorney
P.O. Box 8095
Wisconsin Rapids, WI 54494

James B. Connell
Crooks, Low & Connell, S.C.
P.O. Box 1184
Wausau, WI 54402-1184

You are hereby notified that the Court has entered the following order:

No. 03-0594-CR

State v. Hammerle

L.C. #01CF000144

A petition for review pursuant to Wis. Stat. § 808.10 having been filed on behalf of
defendant-appellant-petitioner, Wallace J. Hammerle, and considered by this court;
IT IS ORDERED that the petition for review is denied, without costs.

Cornelia G. Clark
Clerk ofSupreme Court

Appendix D.

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
WALLACE HAMMERLE,
Petitioner,
Case No. 19-CV-1773

v.
DYLON RADTKE,
Respondent.

DECISION AND ORDER DISMISSING THE PETITION
FOR A WRIT OF HABEAS CORPUS

Wallace Hammerle, who is incarcerated pursuant to the judgment of a Wisconsin
Circuit Court, filed a petition for a writ of habeas corpus. (ECF No. 1.) The court screened
the petition and noted that it appeared untimely and contained claims for which he had
not exhausted his state court remedies. (ECF No. 5.) Therefore, the court ordered
Hammerle to show cause why his petition should not be dismissed. (ECF No. 5.) After
granting Hammerle's request for more time in which to show cause, the deadline for a
response was May 21, 2020. (ECF No. 12.)
On May 19, 2020, the court received a letter from a person identified as Ronald
Rieckhoff, who describes himself as a close friend of Hammerle. (ECF No. 13.) Attached

Case 2:19-cv-01773-WED Filed 10/21/20 Page lot7 Document 15

to Rieckhoff's letter are numerous exhibits that he purports to be submitting on behalf of
Hammerle and in response to the court's order. (ECF No. 13.) The court has not received
any further submission from Hammerle. All parties have consented to the full jurisdiction
of this court. (ECF Nos. 4, 8.)
The court has carefully reviewed the letter and exhibits submitted on behalf of
Hammerle. (ECF No. 13.) The documents generally relate to Hammerle's complaints with
his prior attorneys and his efforts to retain subsequent counsel. They do not address the
defects that the court identified with his petition-specifically, that it is untimely and
contains claims that Hammerle has not presented to one full round of review by the
Wisconsin state courts.
As noted in the court's prior order (ECF No. 5), Hammerle was sentenced on
March 11, 2002. (ECF No. 1 at 2.) He appealed his conviction, see State v. Hammerle, 2004
WI App 88, 272 Wis. 2d 854, 679 N.W.2d 926, 2004 Wise. App. LEXIS 206, and ultimately
the Supreme Court of Wisconsin denied his petition for review on August 2, 2004 (ECF
No. 1-1 at 11). Hammerle had ninety days from that date—until November 1, 2004—in
which to file a petition for a writ of certiorari with the Supreme Court of the United States.
Sup. Ct. R. 13. He then had one year from that date—until November 1, 2005—to file a
habeas petition. See 28 U.S.C. § 2244(d)(1)(A). Hammerle did not file his habeas petition
until December 4, 2019, more than 14 years too late. (ECF No. 1.)

2
Case 2:19-cv-01773-WED Filed 10/21/20 Page 2 of 7 Document 15

The records of the circuit court, see State v. Hammerle (Wood Cnty. Case No.
2001CF000144), available at https://wcca.wicourts.gov, and appellate court, see State v.
Hammerle (Case No. 2003AP000594-CR), available at https://wscca.wicourts.gov, do not
indicate any intervening proceeding that would have stopped the running of the oneyear clock, see 28 U.S.C. § 2244(d)(2). Nor is the court able to discern any other reason for
concluding that Hammerle's petition is timely. See 28 U.S.C. § 2244(d)(1); Holland v.
Florida, 560 U.S. 631, 645,130 S. Ct. 2549, 2560 (2010).
Only one plausible argument regarding equitable tolling of the statute of
limitations merits discussion. Hammerle asserts that he is actually innocent of the crime.
(ECF Nos. 1 at 32; 13-2 at 1, 5.) "In order to demonstrate actual innocence in a collateral
proceeding, a petitioner must present 'new reliable evidence that was not presented at
trial' and 'show that it is more likely than not that no reasonable juror would have found
[him] guilty beyond a reasonable doubt.'" Balsewicz v. Kingston, 425 F.3d 1029, 1033 (7th
Cir. 2005) (quoting Schlup v. Delo, 513 U.S. 298, 299, 327-28, 130 L. Ed. 2d 808, 115 S. Ct.
851 (1995)).
The conviction for which Hammerle seeks federal habeas relief relates to the death
of his eight-week-old daughter. Hammerle, 2004 WI App 88,12. His conviction was based
on the testimony of the girl's mother, Dawn Kuehl, and a jailhouse informant, Edwin
Estep, to whom Hammerle allegedly confessed. Id. Hammerle asserts that Kuehl was
actually responsible for the girl's death, and that he never spoke about the case with

3
Case 2:19-cv-01773-WED Filed 10/21/20 Page 3 of 7 Document 15

Estep. (ECF No. 13-2 at 1.) He alleges that Estep's knowledge of the crime came from
notes that Hammerle, at the advice of his attorney on an unrelated matter, wrote to record
Kuehl's involvement in the murder. (ECF No. 13-2 at 1.) While Estep and Hammerle were
incarcerated together, Estep allegedly broke into Hammerle's locker, reviewed
Hammerle's notes, used those details to create a story inculpating Hammerle, and in
exchange received some unidentified benefit from the state. (ECF No. 13-2 at 1.)
However, this is not new information. Much of it has been known since at least
October of 2002 (ECF No. 13-4 (report of private investigator's interview with Estep's
brother)) and was addressed in Hammerle's appeal, Hammerle, 2004 WI App 88, ^[10.
Other details are contained in an undated letter submitted by Rieckhoff (ECF No. 13-2),
which appears to have been written by Hammerle but, according to Rieckhoff, "was
typed by Hammerle's mother and submitted to all attorneys requesting outside counsel."
(ECF No. 13 at 4.) According to correspondence Hammerle submitted to the court, it
appears that the relevant efforts to retain counsel date to at least 2007. (ECF No. 13-7.) If
Hammerle's letter (ECF No. 13-2) was submitted in conjunction with his efforts to retain
counsel, then Hammerle knew of the relevant facts since at least 2007. But details in the
letter suggest that it was drafted later. The letter refers to a complaint Hammerle made to
the Office of Lawyer Regulation. The court has been provided with a copy of such a
complaint dated April 28,-2014. (ECF No. 13-1.) The letter also refers to Gregory Potter
and Todd Wolf being judges in Wood County. Wolf did not become a judge until 2009.

4
Case 2:19-cv-01773-WED Filed 10/21/20 Page 4 of 7 Document 15

But regardless of whether the letter was written in 2007, 2009, or 2014, what is
material for present purposes is that there is no evidence that it was after December 4,
2018, i.e. within one year of him filing his habeas petition, that Hammerle first learned of
the information contained in the letter. Therefore, the court must conclude that
Hammerle's petition is untimely and must be dismissed. See Pace v. DiGuglielmo, 544 U.S.
408, 419 (2005).
The fact that Hammerle's petition is untimely is only one reason why it must be
dismissed. As the court noted previously, Hammerle's habeas petition raises thirty-three
grounds for relief, fourteen of which relate to ineffective assistance of his trial counsel
(ECF No. 1 at 6-15) and nineteen grounds that relate to ineffective assistance of his
appellate counsel (id. at 16-29). Hammerle acknowledges that he has failed to exhaust his
state court remedies with respect to all but one of his claims. Because his petition is
"mixed" in that it contains both exhausted and unexhausted claims, the court is
precluded from granting him relief as to any claim. Rose v. Lundy, 455 U.S. 509,522 (1982).
His explanations for having failed to exhaust thirty-two of his claims is that an
attorney, either trial or appellate counsel, was ineffective and he (Hammerle) lacks
knowledge of the law. Although ineffective assistance of counsel can, under some
circumstances, "serve as cause to excuse the procedural default of another habeas claim,"
Edwards v. Carpenter, 529 U.S. 446, 451, 120 S. Ct. 1587, 1591 (2000), such a claim must
usually first be "presented to the state courts as an independent claim before it may be

5
Case 2:19-cv-01773-WED Filed 10/21/20 Page 5 of 7 Document 15

used to establish cause for a procedural default/' Murray v. Carrier, 477 U.S. 478, 489
(1986). Hammerle has made no effort to present his claims of ineffective assistance of
counsel to the state court. Therefore, those claims cannot serve to excuse his failure to
exhaust any claim he now seeks to present.
Nor can Hammerle's lack of familiarity with the law, without more, serve as a
basis to excuse his failure to exhaust his claims. Smith v. McKee, 598 F.3d 374, 385 (7th Cir.
2010) ("This court has specifically rejected the argument that a petitioner's pro se status
alone constitutes cause in a cause-and-prejudice analysis.") (citing Harris v. McAdory, 334
F.3d 665, 668 (7th Cir. 2003); Barksdale v. lane, 957 F.2d 379, 385-86 (7th Cir. 1992)).
Dismissal of the unexhausted and procedurally defaulted claims would not permit
the court to consider Hammerle's lone exhausted claim because, as noted above, the
petition is untimely. Therefore, the court must dismiss the petition in its entirety.
Insofar as Hammerle's submission might be interpreted as a renewed request for
the appointment of counsel, the request is denied. The defects in Hammerle's petition are
not remediable through legal acumen. With no indication that Hammerle has a plausible
claim for relief, the court cannot say that the interests of justice require the appointment
of counsel. See 18 U.S.C. § 3006A(a)(2).
Finally, because the court must dismiss Hammerle's petition for a writ of habeas
corpus, pursuant to Federal Rule of Appellate Procedure 22(b), Rule 11(a) of the Rules
Governing § 2254 Proceedings, and 28 U.S.C. § 2253(c), the court must consider whether

6
Case 2:19-cv-01773-WED Filed 10/21/20 Page 6 of 7 Document 15

to grant Hammerle a certificate of appealability. Because the court is dismissing the
petition on procedural grounds, a certificate of appealability is appropriate only if
reasonable jurists would find it "debatable whether the petition states a valid claim of the
denial of a constitutional right" and it is "debatable whether [this court] was correct in its
procedural ruling." Slack v. McDaniel, 529 U.S. 473, 484 (2000). The court concludes that
its decision that Hammerle's petition is both mixed and untimely is not fairly debatable.
The court therefore denies a certificate of appealability.
IT IS THEREFORE ORDERED that the petition for a writ of habeas corpus is
dismissed. The Clerk shall enter judgment accordingly.
Dated at Milwaukee, Wisconsin this 21st day of October, 2020.

WILLIAM E. DUFFltyU
U.S. Magistrate Judge

7

Case 2:19-cv-01773-WED Filed 10/21/20 Page 7 of 7 Document 15

